<html>
<title> - A SMALL BUSINESS COMPONENT TO THE FEDERAL FLIGHTDECK OFFICER PROGRAM: IT'S A WIN-WIN STRATEGY</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




                                                   S. Hrg. 102-000 deg.

A SMALL BUSINESS COMPONENT TO THE FEDERAL FLIGHT DECK OFFICER PROGRAM: 
                        IT'S A WIN-WIN STRATEGY

=======================================================================

                             FIELD HEARING

                               before the
      SUBCOMMITTEE ON RURAL ENTERPRISES, AGRICULTURE, & TECHNOLOGY

                                 of the

                      COMMITTEE ON SMALL BUSINESS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                    WASHINGTON, DC, JANUARY 15, 2004

                               __________

                           Serial No. 108-49

                               __________

         Printed for the use of the Committee on Small Business


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 house



                                 ______

93-476              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                      COMMITTEE ON SMALL BUSINESS

                 DONALD A. MANZULLO, Illinois, Chairman

ROSCOE BARTLETT, Maryland, Vice      NYDIA VELAZQUEZ, New York
Chairman                             JUANITA MILLENDER-McDONALD,
SUE KELLY, New York                    California
STEVE CHABOT, Ohio                   TOM UDALL, New Mexico
PATRICK J. TOOMEY, Pennsylvania      FRANK BALLANCE, North Carolina
JIM DeMINT, South Carolina           ENI FALEOMAVAEGA, American Samoa
SAM GRAVES, Missouri                 DONNA CHRISTENSEN, Virgin Islands
EDWARD SCHROCK, Virginia             DANNY DAVIS, Illinois
TODD AKIN, Missouri                  GRACE NAPOLITANO, California
SHELLEY MOORE CAPITO, West Virginia  ANIBAL ACEVEDO-VILA, Puerto Rico
BILL SHUSTER, Pennsylvania           ED CASE, Hawaii
MARILYN MUSGRAVE, Colorado           MADELEINE BORDALLO, Guam
TRENT FRANKS, Arizona                DENISE MAJETTE, Georgia
JIM GERLACH, Pennsylvania            JIM MARSHALL, Georgia
JEB BRADLEY, New Hampshire           MICHAEL MICHAUD, Maine
BOB BEAUPREZ, Colorado               LINDA SANCHEZ, California
CHRIS CHOCOLA, Indiana               BRAD MILLER, North Carolina
STEVE KING, Iowa                     [VACANCY]
THADDEUS McCOTTER, Michigan

         J. Matthew Szymanski, Chief of Staff and Chief Counsel

                     Phil Eskeland, Policy Director

                  Michael Day, Minority Staff Director

     SUBCOMMITTEE ON RURAL ENTERPRISES, AGRICULTURE AND TECHNOLOGY

SAM GRAVES, Missouri, Chairman       FRANK BALLANCE, North Carolina
BILL SHUSTER, Pennsylvania           DONNA CHRISTENSEN, Virgin Islands
SUE KELLY, New York                  ED CASE, Hawaii
SHELLEY MOORE CAPITO, West Virginia  MICHAEL MICHAUD, Maine
MARILYN MUSGRAVE, Colorado           BRAD MILLER, North Carolina
PATRICK TOOMEY, Pennsylvania

                   Piper Largent, Professional Staff

                                  (ii)


                            C O N T E N T S

                              ----------                              

                               Witnesses

                                                                   Page
Mills, Mr. Buz, President & CEO, Gunsite Academy.................     4
Luckey, Captain Stephen, Chairman, National Security Committee, 
  Air Line Pilots Association, International.....................     5
Sapio, Mr. Terry, Captain, Southwest Airlines....................     7
Roberts, Mr. Dean, Security Committee Chairman, Southwest Pilots 
  Association....................................................     9

                                Appendix

Opening statements:
    Graves, Hon. Sam.............................................    30
Prepared statements:
    Mills, Mr. Buz, President & CEO, Gunsite Academy.............    32
    Luckey, Captain Stephen, Chairman, National Security 
      Committee, Air Line Pilots Association, International......    35
    Sapio, Mr. Terry, Captain, Southwest Airlines................    39
    Roberts, Mr. Dean, Security Committee Chairman, Southwest 
      Pilots Association.........................................    43

                                 (iii)

 
 A SMALL BUSINESS COMPONENT TO THE FEDERAL FLIGHTDECK OFFICER PROGRAM: 
                        IT'S A WIN-WIN STRATEGY

                              ----------                              


                       THURSDAY, JANUARY 15, 2004

                  House of Representatives,
Subcommittee on Rural Enterprises,Agriculture, and 
         Technology,I06Committee on Small Business,
                                                   Washington, D.C.
    The Subcommittee met, pursuant to call, at 1:10 p.m., at 
Gunsite Academy, Inc., Paulden, Arizona, Hon. Sam Graves 
[chairman of the Subcommittee] presiding.
    Present: Representatives Graves and Renzi.
    Chairman Graves. I would like to welcome everybody here 
today and say good afternoon. Welcome to this hearing of the 
Rural Enterprise Agriculture and Technology Subcommittee of the 
House Small Business Committee.
    At today's hearing at Gunsite Academy, we are going to be 
looking at adding a small business component to the Federal 
Flight Deck Officer program. I would very much like to thank 
Mr. Mills for graciously allowing us to have this hearing here 
at the academy. I very much appreciate Mr. Renzi being here. We 
had also originally had scheduled Representative Hayworth and 
Representative Shadegg. Unfortunately, we are in competition 
today with the Vice President, who is down in Mesa, and I 
completely understand them wanting to attend that event.
    I'm sure everyone remembers that shortly before Christmas, 
Secretary Ridge raised the terror alert level due to Al-Qaeda 
threats to hijack a passenger plane from abroad. Fighter planes 
were ordered to be ready to shoot down a hijacked plane if 
needed.
    Two years after September 11th, we are still faced with the 
possibility of shooting down a passenger flight as the last 
line of defense. We have to do more to provide airline pilots 
the opportunity to arm and protect themselves and their 
passengers and crew. By adding pilots to the line of defense, 
we can combat terrorists who seek to use planes as weapons of 
mass destruction to wage war against our country and our people 
here.
    In response to the September 11 attacks, Congress enacted 
the Federal Flight Deck Officer program to provide willing 
pilots the necessary training to protect their passengers and 
crew from future attacks. The Transportation Security 
Administration, or TSA, has begun implementing this program, 
and they graduated their first class of 44 pilots in April of 
2003.
    In July, TSA began running classes of nearly 50 pilots once 
a week at the Federal Law Enforcement Training Center in 
Georgia. Due to demand and over-capacity, the TSA has located 
this training to the federal facility in Artesia, New Mexico. 
However, at TSA's current rate, only 2,600 pilots can be 
trained per year. There are more than 100,000 commercial pilots 
throughout North America, and the Airline Pilots Security 
Alliance estimates that over 40,000--and I've heard estimates 
it's even higher--40,000 pilots wish to take part in the 
Federal Flight Deck Officer program. And these numbers don't 
even begin to account for cargo pilots that recently have been 
given the right to participate in the program. There are many 
who believe that while significant security enhancements have 
been made to our passenger airlines, cargo planes have not 
received the same scrutiny and I believe pose even greater 
security threats.
    While TSA certainly has initiated the Federal Flight Deck 
Officer program, I believe it is finally time to heed the 
congressional directive to extend this program to all 
interested pilots. When Congress passed the legislation that 
created the Flight Deck program, we intended that private 
facilities could be used to ensure that there were multiple 
locations where pilots could be trained. Moreover, since pilots 
must provide for their own travel, lodging and daily expenses, 
it makes sense to have the locations spread throughout the 
United States.
    In order to accommodate pilot demand more effectively and 
efficiently to implement the Federal Flight Deck Officer 
program, small businesses should play a crucial role in the 
commercial and cargo pilots' flight deck officer training. By 
increasing the number of facilities eligible to train federal 
flight deck officers, we will ensure that pilots who choose to 
protect themselves and their aircraft from potential terrorist 
threats have the ability to do so. The Flight Deck Officer 
program can serve as an example of how the government can work 
with small businesses to protect our nation in the war on 
terrorism. It is a win-win scenario for our people and our 
country.
    Now, I'm going to turn to Mr. Renzi for an opening 
statement. And, again, I appreciate very much you being here. 
This is also his district, and I appreciate you hosting us.
    Mr. Renzi. I'm grateful you came. Thank you.
    Good afternoon to everyone. I want to thank Chairman 
Graves, local officials, and members of the community for 
attending here today. I do appreciate the subcommittee holding 
its hearing here in Arizona's first congressional district. I 
would also like to welcome everyone to beautiful rural Arizona, 
especially Yavapai County, given the extraordinary weather we 
are having today.
    I welcome our witnesses, and thank Gunsite and Buz Mills 
especially for their hospitality.
    Before taking office, I slowly began to become educated by 
a lot of people in this room on the need and the role that the 
private sector could play in assisting in the training and 
arming of our pilots. It seems like a logical step that TSA 
would move forward and use the private sector to ensure that 
our pilots are properly trained and our skies remain safe.
    When we talk about Gunsite, we are talking about a 
professional, private training facility that is state of the 
art as far as training law enforcement facility officers, 
military personnel, and qualified citizens. Not only is Gunsite 
professionally qualified to train, but Gunsite is a prime 
location. And this is important as we get into testimony today 
when we talk about selection of locations. Gunsite is close to 
the proximity of a world-renowned aviation security university, 
one of the only universities in America that actually gives 
courses on global security and global terrorism, Embry Riddle 
Aeronautical University, just one and a half hours from Phoenix 
Sky Harbor Airport. And it is surrounded by a community who is 
willing to take on this endeavor.
    Gunsite has trained all branches of our armed forces as 
well as federal law enforcement officers, Arizona law 
enforcement officers, and regional and local law enforcement 
officers. Their list of accreditation is extensive.
    Gunsite has prepared a complete course of instructions for 
the Federal Flight Deck Officer program and has offered this 
subject matter and expertise to the TSA. Gunsite has indicated 
their willingness to work with TSA and agrees that the 
oversight be performed by TSA, a partnership between a federal 
and private enterprise.
    In January of 2003, I met in my office in Washington with 
TSA officials and have sent two follow-up letters to TSA, one 
dated February 10th, 2003; the other dated November 5th, 2003, 
on the issue of training pilots in private facilities. Both 
letters to TSA have gone unanswered. I have not received a 
response on any of the points made in my correspondence. I am 
deeply concerned that TSA is ignoring a prime opportunity to 
use many experienced, private facilities to train our pilots 
and protect our skies.
    Chairman Graves, I look forward to our testimony today. I 
thank the witnesses for attending and thank you all for coming 
from all over the state to be with us. Thank you.
    Chairman Graves. Thanks, Mr. Renzi. I would ask all 
statements of members and of the witnesses be placed in the 
record in their entirety.
    And I also have the written testimony from TSA, who chose 
not to be here today, that we will be submitting also.
    [Transportation Security Administration Acting Director 
David Stone's statement may be found in the appendix]
    Chairman Graves. I would like to thank our panel of 
witnesses for coming out today very much. I appreciate it and 
look forward to hearing your testimony.
    We will go through each of you individually, and then we 
will ask questions. We will wait until all of you have 
testified and then we will go through questions after that.



    Chairman Graves. We will start with Mr. Mills, who is 
president and CEO of Gunsite Academy. And this is an excellent 
facility. In fact, I have trained here before. Before I ever 
was a member of Congress, several years ago, I came to Gunsite. 
The first time I was here, as a matter of fact, training in 
tactical pistol, and I appreciated that training then and have 
gotten to know the crew here even better since that time.
    Thank you for letting us be here today and I appreciate 
your hospitality.

                    STATEMENT OF OWEN MILLS

    Mr. Mills. Mr. Chairman, thank you very much. It's a 
pleasure to have you and it's definitely our pleasure to host 
this.
    My name is Owen Mills. I'm the owner of Gunsite Academy in 
Paulden, Arizona. Gunsite is the largest, the oldest and 
premiere privately-owned small arms training facility in the 
United States. Gunsite is a small business. I've been the owner 
and operator of small businesses for over 30 years. I'm well-
qualified to testify to the contributions these businesses have 
made and can make to American business and industry.
    At Gunsite, we are strong supporters of the Federal Flight 
Deck Officer program. We worked for its passage in the Homeland 
Security bill and we are big supporters.
    It is our conviction that armed pilots, properly trained 
and equipped, can be effective deterrents against air piracy by 
terrorists and a repeat of the horrors that we suffered in 
September of 2001.
    The greatest shortcoming of the Federal Flight Deck Officer 
program, so far, has been TSA's decision to ignore the intent 
of Congress to utilize privately-owned facilities to train 
pilots. It's commonly known in the industry that federal 
facilities are operating at near capacity with existing 
personnel and infrastructure.
    The pilots unions estimate that 30 to 35 thousand of their 
members will volunteer to become Federal Flight Deck Officers 
and will need training within the near term. With the inclusion 
of air cargo pilots, the number may approach 50 to 60 thousand. 
But, after the initial training is completed, these numbers 
will be greatly reduced.
    We believe the pilots who will need training cannot be 
effectively, efficiently or economically accommodated on a 
timely basis using only existing government resources. There 
are several privately-owned, quality, small business 
organizations which currently train thousands of law 
enforcement officers, military personnel and civilians 
annually. They already have the facilities; they have the 
personnel and the capacity to accommodate much of this program.
    It's my firm belief that the FFDO program can be done by 
small business, such as Gunsite, more quickly and more 
economically than can be accomplished using existing federal 
facilities and resources alone. After the initial build-up, 
you, the government, will have none of the after-program costs 
of winding the facilities down and personnel down. That's one 
of the advantages that the private sector offers.
    We proposed to TSA that Gunsite be designated as the 
western training center for the Federal Flight Deck Officer 
program and that Gunsite could accommodate 5,000 pilots a year 
without having a negative impact on our existing operations. We 
prepared a complete, one-week FFDO training curriculum that 
includes all the requirements of the federal law. At their 
request, Gunsite supplied TSA with this information.
    We have installed a Boeing 727 aircraft cabin for the 
simulator portion of our pilot training program. We assembled a 
team of airline pilots, Gunsite graduates all, to flight test 
our cockpit defense training. From this, we learned there are 
many unique requirements to this program which must be 
emphasized in the pilot training. We affirmed to TSA that 
Gunsite could begin its first class within two weeks of TSA 
approval and thereafter train a hundred pilots a week.
    Now in our 27th year of continuous operation, Gunsite's 
clients include all branches of the U.S. military and federal 
protective services, as well as state and local law 
enforcement. Our clients include kings, heads of state, Fortune 
500 companies, dignitaries, and many, many qualified citizens. 
We have over 1,600 acres. We have state-of-the-art classrooms, 
20 outdoor ranges and six simulators. All of our courses are 
credit approved by the State of Arizona for law enforcement 
credit continuing education. Many federal and military 
organizations accept these credits as well.
    In the war against terrorism, the FFDO program is a step in 
the right direction. It can be greatly improved by qualifying 
small businesses such as Gunsite to help conduct the program.
    Thank you for your attention and your concern for these 
issues which are important to our national security and to 
Americans everywhere.
    Chairman Graves. Thanks, Mr. Mills.
    [Mr. Mills' statement may be found in the appendix]
    Chairman Graves. We are now going to hear from Captain 
Stephen Luckey, who is chairman of the National Security 
Committee of the Air Line Pilots Association. I've heard you 
testify before in the Aviation Subcommittee, also, which I sit 
on, and I look forward to your testimony here. Thanks for being 
here.

              STATEMENT OF CAPTAIN STEPHEN LUCKEY

    Mr. Luckey. Thank you, sir.
    Good afternoon. I'm Captain Steve Luckey, chairman of the 
National Security Committee of the Air Line Pilots Association, 
International, representing the security interests of 66,000 
pilots who fly for 43 airlines in the U.S. and Canada.
    The Air Line Pilots Association was the first organization 
to request--requesting the creation of the FFDO program, and it 
became a reality, of course, with the passage of the Arming 
Pilots Against Terrorism Act which was enacted as part of the 
Homeland Security Act of 2002. ALPA applauds Congress for its 
vision in recognizing the need for the program, the tremendous 
value it represents, and for passing the legislation needed to 
make it a reality. We also express our gratitude for the 
opportunity to have worked hand in hand with Congress and the 
Congressional leaders on this important initiative.
    Since January of 2003, ALPA has actively participated in a 
TSA-sponsored industry-working group convened to provide 
guidance to the TSA efforts to establish the FFDO program. In 
April 2003, 44 pilots successfully completed the prototype FFDO 
training curriculum at the FLETC in Glynco, Georgia. And I was 
part of the--I was a participating observer in that program.
    Since then, hundreds of FFDOs have been trained, deputized, 
and field deployed. The majority of these new federal law 
enforcement officers are ALPA members, so we have a key 
interest in the program and we enjoy a close working 
relationship with the TSA. When viewed from an economic 
perspective, the program's value is abundantly apparent. The 
aviation industry and the nation benefit from the service of 
pilots who unselfishly volunteer to serve as federal law 
enforcement officers.
    The TSA has developed an effective initial training 
curriculum designed to prepare FFDOs for the challenges they 
will be facing when field deployed. The training site at 
Artesia, New Mexico, despite its logistical challenges, has 
received praise for being well-equipped, staffed and capable of 
expansion. With the recent doubling of training capacity, 
throughput capabilities have increased dramatically. It also 
offers affordable food and lodging accommodations to pilot/
students. And this is a significant factor because pilots have 
to incur, personally, the costs for the training and 
transportation, et cetera, to these programs.
    Meeting certain goals is crucial to the ongoing success of 
the FFDO program, especially during the initial training. 
First, the training must be standardized, of course, in a 
consistent fashion, providing the FFDOs with the best tools, 
training, and tactical knowledge to meet the challenges they 
may face.
    Secondly, the curriculum must be adaptable to meet the 
changing needs and conditions. Training updates must be easily 
deployable and consistently provided.
    The third--but I think this is a very important goal of the 
program--the training process must provide the FFDO with a 
sense of institutional pride and belonging. I think this is 
important in any law enforcement organization. It's critical 
that the FFDOs understand they are deputized federal law 
enforcement officers, trained and supported by the federal 
government to protect the aviation component of the nation's 
critical infrastructure. We cannot underestimate the real and 
perceived value of this key element of the training process, 
particularly during the initial training phases.
    We do have the highest respect for the capabilities of 
several private facilities, Gunsite being a prime example of 
these facilities. In order to guarantee that these FFDO 
training goals are reached, the initial training should 
continue to be provided either at federal law enforcement 
facilities or under the auspices and guidance of a federal 
oversight.
    It's worth noting that most federal, state, and local law 
enforcement agencies send their officer candidates to academies 
that are owned and operated by their respective governments, 
and very few use private facilities. This ensures that the 
training meets the government standards and is supervised on 
location by government instructors.
    Regarding recurrent training, we do see a very significant 
value for incorporating private facilities into this portion of 
the FFDO training. These facilities would complement the FFDO 
program by offering strategically located, federally certified, 
professional training facilities where FFDOs could maintain 
skills proficiency and receive updated training. This approach 
provides a win-win for all involved. The TSA can offer high-
quality training at multiple locations across the country and 
pilots will be able to schedule their training at locations 
that minimize their out-of-pocket costs and time away from 
home.
    ALPA recommends a few safeguards be implemented for FFDO 
training administered by--at non-federal sites. First, we think 
a federal representative should be on site to ensure that the 
quality and consistency meet federal standards. We believe that 
instructors should be federally certified. I believe most of 
the Gunsite instructors here are. The curriculum should be 
presented in a manner that reinforces the FFDO's understanding 
that the training is being offered under the auspices of his or 
her federal agency, the TSA.
    ALPA commends TSA for investing a significant amount of 
time and resources in the development of the program. As the 
initiative matures, the possibilities for enhancing the 
existing programs are becoming even more apparent. We encourage 
the TSA to continue its efforts to enhance the FFDO program to 
best utilize the untapped potential contained therein.
    I'd like to thank you again for inviting me to testify here 
today and for your attention and your dedication to our 
efforts.
    Chairman Graves. Thanks, Captain Luckey.
    [Captain Luckey's statement may be found in the appendix]
    Chairman Graves. We are now going to hear from Terry 
Sapio--I hope I said that right--who is a pilot with Southwest 
Airlines. I appreciate you being here. I know you've been on 
the schedule, and thanks for coming in.

                  STATEMENT OF TERRENCE SAPIO

    Mr. Sapio. Thank you, Chairman Graves and Congressman 
Renzi, for this opportunity to testify on the full 
implementation of the Federal Flight Deck Officer, FFDO, 
program and the impact of a small business component.
    My name is Terrence Sapio. I've been flying jets for over 
23 years, and I have logged over 18,000 flight hours. I'm 
currently a captain for Southwest Airlines, and have flown 
Boeing 737s since 1987. Prior to flying for Southwest, I was a 
United States Air Force C-141 instructor pilot. I was qualified 
as an expert in firearms and on occasion was required to carry 
a firearm during missions.
    I'm not testifying as a representative of any business or 
organization, but as a commercial airline pilot who is 
interested in effective deterrents against air piracy and 
terrorism.
    In conversing with others in my profession, I believe my 
views represent the opinions of most airline pilots. The 
Federal Flight Deck Officer program has the potential to be a 
formidable deterrent to terrorists' attacks. With armed and 
trained pilots in the cockpits of commercial aircraft targeted 
by terrorists, the likelihood of a successful hijacking attempt 
should be eliminated. If terrorists believe their attempt to 
gain control of an aircraft has a high probability of failure, 
they are less likely to make the attempt in the first place. 
The terrorists must believe, however, that there is a high 
probability that the pilots of a target aircraft are armed, or 
there is no deterrence.
    Currently, there are not enough participating pilots to 
provide that deterrence, and under the current Transportation 
Security Administration, TSA, rules, it's unlikely there will 
ever be enough participating pilots to accomplish a significant 
deterrence. The FFDO program could be the means for thousands 
of volunteer pilots to provide deterrence to terrorists at very 
low cost to taxpayers. Unfortunately, the FFDO program passed 
by Congress has been hobbled by the TSA. Thousands of pilots, 
myself included, who previously expressed an interest in 
volunteering for the FFDO program now have no intention to 
volunteer under the current terms set by the TSA.
    Pilots who participate in the FFDO program accept the 
responsibility to deter future terrorist attacks at significant 
personal expenditure of time and money. Nearly all of the 
pilots give up a week of vacation or a week's pay to attend the 
initial training.
    Instead of trying to facilitate participation, the TSA has 
made every aspect of volunteering, training and performance of 
FFDO duties as difficult, inconvenient, expensive and onerous 
as possible. The TSA has caused thousands of pilots to 
reconsider participation in the FFDO program and thwarted the 
will of Congress.
    The first deterrent to participation is the psychological 
and background screening of FFDO applicants. The TSA puts 
pilots through psychological and background screening that far 
exceeds that of federal air marshals, law enforcement officers, 
or TSA officers.
    The second TSA deterrent to FFDO participation is the 
limited and remote location for training. To get to the Artesia 
facilities, FFDO candidates fly to El Paso for a four-hour bus 
ride or to Albuquerque for a four-and-a-half-hour bus ride. 
Further, the facility is not capable of training all of the 
pilots who would participate if the FFDO program was more 
acceptable.
    This is where the small business component to the FFDO 
program could contribute. Private training facilities such as 
Gunsite Academy would greatly increase the FFDO training 
capacity. They are also much more accessible. Phoenix is a 
major crew base for both Southwest and America West Airlines. 
Their pilots would simply drive two and a half hours to Gunsite 
for initial and recurrent training. For pilots not based in 
Phoenix, a rental car or shuttle from Sky Harbor Airport still 
makes Gunsite Academy convenient.
    The third TSA deterrent to FFDO participation is Draconian 
rules for firearms management. The TSA requires FFDO 
participants to keep their firearm in a lock box any time not 
on duty in the cockpit, and in the cargo compartment when 
flying in the cabin. These irrational requirements jeopardize 
the safety of the pilot and passengers. The boxed and bagged 
firearm hinders the pilot's duties and increases the likelihood 
the firearm will be lost or stolen.
    Pilots travel with a carry-on bag, a book bag, and 
frequently a laptop commuter. To add an additional bag for the 
lock box is impractical at best, and dangerous at worst. The 
TSA is well aware of how common it is for a bag to be lost or 
stolen in an airport, yet they insist on putting the FFDO 
firearms, and subsequently the airport and aircraft, at risk.
    The only safe and secure place for the firearm is on the 
pilot, whether concealed or in plain view. The public expects a 
policeman to be armed, and terrorists should expect pilots to 
be armed, too.
    It is my hope that this subcommittee, with the assistance 
of your fellow legislators in Washington and private training 
facilities such as Gunsite Academy, will be able to put the 
FFDO program on the fast track to maximum terrorist deterrence. 
It's time for the terrorists to see air piracy as an exercise 
in futility.
    Mr. Renzi. Thank you.
    Chairman Graves. Thanks, Mr. Sapio. I appreciate it.
    [Mr. Sapio's statement may be found in the appendix]
    Chairman Graves. We are now going to hear from Dean 
Roberts, who is the security committee chairman for Southwest 
Pilots Association. I think you bring a unique perspective to 
this panel yourself, and I look forward to hearing your 
testimony. Thanks for being here.

                  STATEMENT OF DEAN C. ROBERTS

    Mr. Roberts. Thank you. First, I want to thank you for the 
opportunity to testify on the full implementation of the 
Federal Flight Deck Officer program and the positive impact it 
could have on small business.
    My name is Dean Roberts. I have been involved with the U.S. 
military, Federal law enforcement aviation, and firearms 
training for 23 years. Prior to flying for Southwest Airlines, 
I was a pilot for the U.S. Customs Service, as well as a 
special agent/pilot and firearms instructor for the Drug 
Enforcement Administration in Lima, Peru.
    I'm a graduate of the Federal Law Enforcement Training 
Center as well as the FBI Academy in Quantico, Virginia. My 
background in flying armed is extensive, but there are many 
pilots in the industry with similar backgrounds, most of who 
want nothing to do with this program in its current flawed 
state.
    I was invited to attend the first FFDO class in April of 
last year. I was also one of four pilots that were dropped from 
training. And in my case, one hour before graduating. When 
pressed for answers by my airline on why I was dropped from 
training, the TSA said that I was dropped because I did not 
complete the program.
    This is the type of doublespeak TSA has been engaged in 
since day one of this program. I'm sure my work on the pilot 
working group and my exposing of flaws and unworkable policies 
are what led to my dismissal from training. TSA management 
staff overseeing the first class was not interested in hearing 
about problems with the program.
    I'm not testifying as a representative of any business, but 
as a concerned commercial airline pilot. In August of 2002, 
when it became obvious that the FFDO program was going to 
become a reality, I was asked by my airline pilot union to be 
part of a pilot working group with several other airlines. This 
working group was tasked to develop policies and procedures 
that would facilitate the armed pilot into daily airline 
operations. I believe my background in federal law enforcement 
and firearms training made me uniquely qualified to provide 
meaningful input in this area.
    In November of 2002, the FFDO program became a reality and 
the pilot working group met with TSA early in December. From 
our very first meetings with TSA, it was evident that they 
already had a policy in place and were not looking for any 
input from pilots. We repeatedly offered suggestions to make 
the program more functional. Our recommendations were rejected 
outright without even as much as a review or discussion. TSA's 
meeting with the pilots was eye wash, and at times there was 
heated discussion.
    When it became obvious that TSA was overstepping its 
mandate and imposing policy that was not in the legislation, 
the TSA staff attorney told us that he was the attorney for the 
agency and that he would interpret the legislation in such a 
narrow manner that nobody would volunteer for the program. This 
is just one story of many that the pilots working group would 
contend with in the months before the first FFDO class was 
selected.
    In February of 2003, the pilot group was presented the 
final policy governing this program. Upon our review, it was 
obvious that the program as TSA was imposing on the pilots 
would not work as Congress intended and would minimize pilot 
participation just as TSA wanted. When the group voiced 
concerns over the policies, we were told that for the most 
part, the policies were written in stone and would not be 
changed, especially the method of carrying a weapon.
    The policies of the TSA are what brings us here today. Just 
as TSA wanted, pilot participation in this program has been 
minimal, no matter what TSA may say publicly. At my airline, I 
would say that eight out of ten pilots interested in the 
program will not volunteer because of the application process, 
the outrageous and unnecessary policies regarding 
transportation and handling of the weapon, and the inconvenient 
and remote training location.
    TSA has had an army of attorneys pour over every aspect of 
this program and is engaged in a delay, impede and obstruct 
policy by throwing up one roadblock after another. If this 
program is to succeed as Congress envisioned, and provide a 
significant level of deterrence to future terrorist attacks, 
several areas need to be addressed by Congress immediately.
    First and foremost, the application and screening process 
is unnecessary. Currently, the pilots are required to fill out 
a 13-page application. This is longer than any airline 
application I've ever filled out. It's longer than any 
government application I've filled out to be a federal law 
enforcement officer. This is unnecessary and is one of the many 
roadblocks TSA has erected. Pilots employed by major airlines 
should be eligible for this program as soon as a criminal 
history check is completed. This can be done in a matter of 
minutes.
    Next is the whole idea of psychological testing. This, 
again, is unnecessary and adds to the hassle factor for the 
pilot. TSA claims that a pilot that shoots an attacker must 
then be able to land the aircraft. The TSA claims that not all 
pilots possess this ability. Will this testing separate those 
capable of this and those that are not? I think not. Airline 
pilots train constantly for emergency situations, and even if a 
pilot was to become incapacitated after shooting an attacker, 
there is another fully-qualified pilot in the seat right next 
to him. Pilots are already required to submit to and pass a 
medical examination by a government flight surgeon every six 
months. This medical exam is all that should be required by the 
TSA to participate in this program.
    The next area that needs to be addressed is the current 
method of carrying a weapon. The current policies imposed by 
TSA in this area are unsafe and do not conform to accepted law 
enforcement flying armed protocol. The current policy puts the 
custody and security of the weapon in question and has resulted 
in weapons being misplaced daily. This is just another 
roadblock that TSA has erected for the pilots who want to 
participate in this program.
    The TSA has dragged its feet on this program for almost two 
years. Training has been slow, and since pilot participation is 
minimal, TSA is able to claim its seats go empty in FFDO 
training weekly.
    I would suggest to you if TSA were forced to implement this 
program as Congress envisioned, the number of pilots 
volunteering for the program would be so great that TSA would 
be forced into contracting much of the training out to private 
sector training facilities like the Gunsite training academy.
    TSA has not made participating in this program easy. In 
fact, they have gone out of their way to make it as problematic 
as possible. They have reinvented the wheel in every aspect of 
this program, and the result has been pilot--minimal pilot 
participation, just as the TSA wanted.
    One would think that TSA would welcome free help in 
securing the nation's aircraft. Instead, TSA views us as a 
threat to future manning and has chosen to play politics over 
providing an effective deterrent to future terrorist attacks.
    It is my hope that with the help of this subcommittee and 
the pressure of your fellow legislators in Washington, pressure 
can be put on the obstructionists at TSA. Individuals like John 
Moran, Frank Scrosky, Tom Quinn need to be removed from 
positions of power over this program and people brought in that 
will work with the pilots instead of working against us.
    I believe that this program, if this program is implemented 
as Congress envisioned, the number of pilots wanting to 
participate would require that TSA enlist the services of 
private training facilities like the Gunsite Academy to keep up 
with training demands. I only hope that another 9/11 incident 
is not the catalyst for change at TSA. Thank you.
    Chairman Graves. Thanks very much, Mr. Roberts. I 
appreciate you, again, all being here.
    [Mr. Roberts' statement may be found in the appendix]
    Chairman Graves. We are now going to open it up for 
questions from Mr. Renzi and myself. And, Rick, feel free to 
jump in at any time.
    A frustrating thing for me is--and I have heard a lot of 
arguments on why it is we shouldn't use private facilities, a 
lot of these crazy rules that they have implemented. One of the 
things that they like to point out is that we can't use private 
facilities because these are deputized officers. They have to 
go through a federal facility because they are deputized. But, 
yet, when you look at the procedures that a pilot--if a pilot 
is dead-heading, or whatever you want to call it, back to 
another facility and they aren't actually flying the aircraft, 
they have to keep this thing in a lock box or down in the cargo 
hold but, yet, they are considered a deputized officer. Any 
other deputized officer, whether they are with the U.S. 
Department of Agriculture or whatever the case may be, if he 
declares it, he can carry a weapon on board the aircraft. And 
it's frustrating to me that it's a little bit of a double 
standard here. They are saying you can't train at a private 
facility because you have to be deputized; but, yet, they 
aren't treating you like a deputized federal officer when you 
are on board the aircraft.
    And I have to ask you, it seems to me that--and I know, 
sometimes I'll know ahead of time if I'm on an aircraft that 
there is a federal officer on board. And if they happen to be 
carrying, it just makes you feel a little bit better if there's 
not necessarily an air marshal on there, but somebody that 
knows how to use a handgun. And it would seem to me--and there 
are always pilots travelling back and forth to other 
destinations on board an aircraft--that you've just increased, 
you know, a hundredfold your--the opportunities there to stop a 
perpetrator.
    I would like for any of you to comment on that. I mean, how 
many pilots are doing that? You know, riding in the jump seat 
or sitting out there in the passenger compartment on any one 
particular flight? I see them all the time.
    Mr. Roberts. It happens all the time. It happens all the 
time. You know, they're holding the pilots in this program to a 
higher standard than federal law enforcement officers but then 
not letting them carry the gun. If you're going to hold us to 
higher standards, at least give us the same authority to carry 
the weapon as a meat inspector, as a special agent from the 
Peace Corps has.
    I'm all for having more guns in the back. I would say to 
you that if the people involved in the accidents on 9/11, if 
every crew member on the airplane was armed that day, could the 
events have been any worse?
    Chairman Graves. Precisely.
    Mr. Roberts. You know, could it have been any worse?
    Mr. Renzi. I wanted to give--go ahead, Mr. Luckey.
    Mr. Luckey. One comment on this.
    The government has gone halfway on this thing in the 
beginning. They should have listened to the law enforcement 
people when they implemented this, but policies developed in 
this thing. Everyone knows a lot of people fought tooth and 
nail. It wasn't a popular program and we had to sell it. And 
that's what the testimony, previous testimony--I believe you 
were present when I gave some of it--was.
    But if you look at this thing, you should never take a 
resource that you develop, that costs money and volunteers, the 
way we have this FFDO set up, and then restrict it. You should 
actually try to multiply it and provide it to meet the threat.
    If a week's training is inadequate to have the custodial 
responsibility required for this training, then perhaps they 
should have a day or two more. Because we don't need driving, 
we don't need them to tell us about any traffic stops, 
warrants, serving warrants, any of that kind of stuff. All we 
need to do is police that cockpit and then be a backup, a force 
multiplier.
    When you have this resource and you've got a deputized 
federal officer, this whole program to train one guy is less 
than it costs a couple federal marshals who go out for a 
mission to cover a series of flights. It's the best bang for 
the buck that I've ever seen the government have. So why 
restrict it? In other words, what we need to do is use this as 
a force multiplier, recognize it for the potential it is.
    There is a reason why cops carry weapons the way they do. 
It's an evolutionary process, like they do everything else. And 
that custodial responsibility is very important, and it's 
something that we have in place and we are just not using it. 
And we need to know this.
    Mr. Renzi. I appreciate it.
    I wanted to give Mr. Mills a chance to expand on an issue 
here and particularly get it in the Congressional Record.
    When I had TSA come over to my Washington office and I sat 
down with them, I asked specifically, is there any history at 
all of a private facility or a private contractor ever training 
a federal law enforcement officer? I was told no. Come to find 
out, later, that was incorrect information I was given. That's 
what the follow-up letters have gone over.
    I also believe and know you to be a patriot and know that 
you're out front on this. You're probably leaning out on the 
edge on this, and that, given the leadership we are seeing at 
TSA right now, you possibly could be subject to retaliation for 
helping the private sector engage in a training that's going to 
help America. That's what I believe.
    And I want to give you a chance not to just talk about the 
qualities of Gunsite, but to talk about the fact that there are 
a number of facilities that could do this, a number of 
qualified facilities in the private sector role. If you don't 
mind, just expand on that.
    Mr. Mills. There are--well, go back to the first thing that 
you were talking about and the information that they've given 
you, Mr. Chairman, as well.
    When they talk about that training federal law enforcement 
officers have never been done by anybody else, the entire air 
marshal program, all of their firearms training was provided by 
contractors that provided people to the training facility at 
Artesia. It was done at Artesia at the federal facilities. 
Contractors did it. I know this because they contacted me--the 
contractor did--and wanted to hire my people to go do it. And 
they did the bulk of the firearms training over there with 
contractors. So that is--you know, that information you 
received was incorrect.
    And this is well-known throughout the industry. This is 
not--I know a fellow that was not one of our firearms 
instructors; he was a service manager at a Ford dealer and he 
was a competitive shooter. The contractor hired him, sent him 
to Artesia. So that brings--that makes you want to say, well, 
you know, what's going on here?
    Our guys are professional firearms instructors 24/7. If 
they are not at Gunsite, they are out somewhere else teaching. 
They are either federally certified, state, local certification 
training in their department or they are in the military. So 
that's the kind of quality of stuff that we have over here.
    What I had initially proposed to the TSA was that we take 
this a step up, use our federal and certified instructors to 
provide the martial arts and the firearms training. I have the 
facility; I have the capacity. We have a community that's very 
supportive here that can support the lodging and meals and that 
sort of thing while you're here. So we have this available. We 
want to be a provider.
    If we want to provide a real deterrence to these terrorist 
acts, let's get as many people in the cockpit as quickly as we 
can that are qualified to do this. And have the TSA people 
here. Send two or three people, whatever, to cover that 
portion, which it's probably--from what I understand from 
people who have attended the program, somewhere probably around 
40 to 50 percent of the program is classroom work. Have them 
provide that, be here, supervise my people providing the 
martial arts and firearms training. They award the credentials 
and the certificates. It's all a TSA operation. You just 
essentially use my people for the portion that we can do well 
and then use the facility.
    So it would bring--the advantage here, where this works 
with small business, is it brings a tremendous amount of 
traffic to our community, it makes a contribution to our 
community, makes a contribution to our business, and we can do 
it on a competitive basis. There are several of these 
facilities around the country, cheaper and quicker, and we can 
get more people into the cockpit quicker.
    Mr. Renzi. Buz, can I follow up? Would the training at your 
facility in any way limit the TSA's ability to, quote, evaluate 
a candidate's overall fitness for the program and to, quote, 
control the quality of the training? Being at your facility 
versus being at a FLETC, would it somehow limit the ability of 
TSA to evaluate a candidate's overall fitness and control the 
quality of training?
    Mr. Mills. I don't see that we would have a negative impact 
on either of those. We can provide whatever facilities they 
need to do that. In fact, our instructors, our people watch all 
of our clients that come here. They are watched very closely 
and we evaluate them constantly on their ability to complete 
the operations. And we have, on several occasions, asked people 
to leave because they just couldn't handle it.
    Mr. Renzi. Right.
    Mr. Roberts, in your experience--we are dealing with a 
controlled issue here with TSA, obviously. I'm looking at the 
statement submitted by Mr. David Stone, Acting Administrator 
for TSA, who didn't come today but he submitted a written 
statement. And in going through his logic, it seems to be a 
real control issue.
    In your time, in your expertise--which is significant in 
listening to your statement today--is there an ability to 
provide the quality that we're looking for, to be able to meet 
the capacity that we need to, but for some reason just because 
we've always done it in the past at a federal facility, not do 
it at a private facility?
    Mr. Roberts. It's ridiculous.
    Mr. Renzi. Please.
    Mr. Roberts. One thing has to be addressed before we answer 
that question. You have to have the capacity. You have to have 
the volunteer pilots. Right now, nobody wants to participate, 
so TSA can say, hey, it's minimal participation; we've got 
enough facilities to do it, we'll just keep it all to ourselves 
because we don't have enough guys; seats go empty every week 
because not enough guys are volunteering and we told you people 
wouldn't volunteer. That's their logic.
    If Congress forces TSA to implement this program and lift 
the restrictions and the foolishness, pilots will volunteer to 
an extent there will be so many volunteers, they'll have to 
farm--they'll have to contract out. And if you have people on 
site here when every class goes through, those people could be 
tasked with overall review and checking out the students and 
certifying their suitability for the program, as well as 
certifying the training at the end of the program.
    You don't have to have ten guys at Artesia watching the 
class. Have two. They could certify the whole training class at 
the end of it with one or two guys here on a TDY assignment. It 
would certainly be cheaper to send a couple of government 
employees out here on a TDY assignment for a month to certify 
students as they go through here, as opposed to opening another 
training center.
    Mr. Renzi. Plus up cost. Well said. Mr. Chairman.
    Chairman Graves. Buz, do you know offhand how many people 
you train, total, in a year's time?
    Mr. Mills. About 1,200 a year.
    Chairman Graves. About 1,200?
    Mr. Mills. Yes.
    Chairman Graves. One of the things--another frustrating 
statement by the TSA originally was that a lot of the private 
facilities are inaccessible. And I think it's interesting that 
they have now moved this--or the new training to New Mexico, 
which is completely, completely inaccessible.
    But I've got a question for all of you. And you don't have 
to answer if you don't want to. But would--in your opinion, 
what is TSA's reason for making the requirements or the burdens 
you have to, or the hoops you have to jump through to go 
through training just overwhelming? What do you think is the 
reason?
    Mr. Roberts. Government employees, people that run the air 
marshal program and that run TSA, get promoted based on how 
many people work for them. Not if they do a good job. They get 
promoted on how many people work for them. If we hire more air 
marshals, we get more government employees, we get more 
management, and so the empire grows.
    TSA employees, U.S. Customs, the people that run the air 
marshal program now, they get nothing by hiring 10,000 armed 
airline pilots. Nobody gets a corner office; a nice, new 
government vehicle; nobody gets a GS-15 promotion out of this. 
So, there's no support. What's in it for TSA? You got free help 
here that want to come to this thing, but TSA doesn't get a 
promotion out of it, so we're not going to support it.
    Mr. Sapio. I agree 100 percent. The emotional reaction is 
that pilots believe that the TSA either doesn't trust them or 
doesn't think the pilots are capable to perform the duties 
when, in essence, for example, the pilots on combat air 
missions during alert status orange, or terrorist status orange 
are flying the F-16s and the F-15s with the missiles ready to 
shoot down a hijacked airplane. And then those very same pilots 
go to their real job, which is to be an airline pilot, and the 
TSA isn't going to let them have a gun in the cockpit? I mean, 
it's ridiculous. So, everybody realizes that the pilots are 
fully capable of performing the duties, and everyone realizes 
that the airline pilots are absolutely trustworthy with the 
responsibility.
    But the real reason, I agree, is that the TSA is trying to 
build an empire, and volunteer, unpaid pilots do not add to the 
TSA empire. And I think that's the number one reason why the 
TSA doesn't want to arm pilots. They would much rather put more 
federal flight deck--I mean more federal air marshals on the 
TSA payroll because it builds their empire. Unpaid airline 
pilots do not.
    Mr. Renzi. Terry, can I follow up?
    When we talk about TSA air marshals, one of the issues I'm 
faced--my district goes almost to the border, and I'm told we 
lost a considerable number of border patrol agents, did a 
lateral federal transfer over to TSA. Now, I'm told that the 
air marshal program itself, we are beginning to lose people 
from the air marshal. So we bring our young men and women in to 
protect the border. Tough on the border, don't pay them enough, 
don't take care of them enough; lateral transfer into TSA, and 
then we are losing them. So we've got this revolving door going 
on. We are taking people off the border, which we need right 
now, trying to put them in the skies, and then losing them, 
sitting on an airplane for eight, ten hours a day eating 
airplane food and watching a movie as an air marshal.
    When I leave Reagan National, when the Chairman and I leave 
Reagan National and we take off, we're told to stay in our 
seats for a half hour. On approach, you have to be in your seat 
for a half hour. And, typically, we are told on that flight is 
an air marshal to protect us who is carrying a concealed 
weapon. That weapon is carried in some sort of a holster that 
he can draw out quickly.
    You, as a pilot--and you talked about the lock box. What 
kind of a hindrance, what kind of inability for you to be able 
to control that weapon, for you to be able to draw that weapon, 
to properly use that weapon in the tight space of a cockpit is 
being imposed on you by these regulations?
    Mr. Sapio. Well, once you are inside the cockpit, it's not 
a hindrance because the weapon is removed out of the lock box 
for the flight. That's after the cockpit door is closed and 
locked. And----
    Mr. Renzi. Is there a holster, a chest holder, or--.
    Mr. Sapio [continuing]I don't know.
    Mr. Roberts. Similar.
    Mr. Sapio. Okay. So it is immediately accessible once the 
cockpit door is closed. But it's the transportation of that. 
When the pilot is riding in the back--one of the questions that 
you had was how often is it for a pilot to ride in the back of 
the airplane? It's more common than not that you have jump 
seating pilots in the back of the aircraft.
    Mr. Renzi. Let me stop you for a second. I want to go back. 
Is the holster location classified?
    Mr. Roberts. You know, I participated in the program, so I 
want to be very careful about what I--.
    Mr. Renzi. Okay. I just want to go to a question of the 
drawing of the holster and the location of the holster is not 
now impeded; that's been worked through? Those issues?
    Mr. Sapio. Once you're in the cockpit and the door is 
closed.
    Mr. Luckey. To some extent. The genesis of this is 
important.
    First of all, the equipment and allocation and idea that 
they came up with in the beginning, first of all, they wanted 
to give the FFDOs revolvers. We had to actually take people out 
at Dulles, get them in the cockpit of a 757, and demonstrate 
that with multiple perpetrators, you just don't shoot somebody 
once and have them fall down. We had these people assault the 
cockpit, and with multiple hits with a revolver, you know--
reloading a revolver is difficult at best. And when you have 
four and five--in historical reference, four or five 
perpetrators come in, you have to have more ammunition. So as 
soon as we did that, they got rid of the revolver idea and we 
went over to the magazine, semiautomatic weapon.
    If you look at the genesis, then, essentially, how this 
thing evolved, they didn't want to put--for example, we could 
talk about this at class, but it didn't happen. We've got to be 
able to access that weapon, acquire that weapon when you're 
bent over, because we had people coming in, perpetrators coming 
in over the backs of the pilots in an explosive entry type 
thing. You've got to acquire that weapon. Of course, the best 
way to do it--and you don't want the muzzle arc to go across 
your co-pilot or your captain depending on how you are sitting.
    These are all tactical considerations that were very 
carefully addressed, but for some reason they had this thing so 
restricted--and they still have it very restricted--so that it 
doesn't happen. We can't access the resource adequately on the 
job.
    In other words, if you put the firearm in any of the 
scenarios on 9/11, you can see the difference that thing would 
make. And if you carry the weapon in a lock box and it's down 
below and you have a hijacking going on, the argument the TSA 
comes out with right now, they said, well--and I have these in 
quotes, by the way. I brought them with me. They think that the 
pilot is going to go crazy and just start shooting everybody. 
That was one.
    We have had--by TSA's records, in 45 days of keeping 
records, they have had 345 reported mishandling of weapons. 
They figure that they're getting 50 percent reported. That 
makes 700 mishandlings in 45 days by their own reporting. These 
are all things happening in the program that need remedial 
action, and we need to fix these things.
    I think that if you look at the genesis of how this worked, 
it's what happens when you set policy without consulting the 
end user. And people who do this on a regular basis, like Buz 
Mills, should be the people who can provide this expertise.
    TSA is not a law enforcement entity. And the federal air 
marshals just went over to vice. They went over to immigration 
and customs, so they lost those. So this is the only entity 
they have right now.
    I carried a weapon on an airplane for 15 years back in the 
mid '70s. The program was run by the Justice Department, and we 
carried it on our person. I carried it all the time because, 
obviously, even though your jurisdiction is in the cockpit, the 
threat far exceeds that. The threat could be anywhere. Why 
restrict a resource that you spent money and time to develop 
that's proven to be an evolutionary concept that works? Why do 
that? It just doesn't make sense to me. So--and I don't think 
it makes sense to anyone else. And to say that a pilot isn't 
qualified to do this is ludicrous.
    Mr. Sapio. I would just like to add to that, that the list 
of law enforcement agencies that are entitled to carry their 
firearms in the back of the aircraft as a passenger is quite 
lengthy, and it even includes postal inspectors.
    So for the TSA to say, you know, pilots cannot be trusted 
to be sitting in the back of the airplane with a firearm when 
they are allowing our historical law enforcements that don't 
have such a good track record to carry the firearm in the back, 
it just doesn't make any sense. And they realize the fallacy of 
that argument and they know that it's not true. And when they 
speak this stuff, they're just blowing smoke because, once 
again, the real reason that we all believe that they are trying 
to hamper the pilots from participating in this program is so 
that they can build their own TSA empire with federal air 
marshals.
    Mr. Roberts. One point, also. There was a pilot that was 
due to be here with us today that just finished the training, 
and he was told by TSA if he came and spoke, that he would be 
out of the program.
    So they are not up for any kind of dissension, or, or they 
don't want to hear any bad news. And there was four qualified 
guys in that first class in April that got sent home. Not 
because they weren't qualified, not because they didn't pass 
any of the training, because they pushed and they demanded 
answers. And as soon as you got pushy and said things aren't 
going to work, well, you're out of here.
    Mr. Renzi. Retaliation.
    Mr. Roberts. Yes. They didn't want to hear anything about 
problems with the program. If there was any dissension, you're 
gone.
    Mr. Renzi. Mr. Chairman, a real quick follow-up and I'll 
turn it back to you.
    You were talking--and I appreciate you teaching me on the 
procedures and all. Are we still operating under a government-
issued weapon, or are we operating under a standard that has to 
be purchased by the individual?
    Mr. Luckey. Initially, they issued a Glock .22, and they 
went to a Heckler and Koch, H&K USP Model .40 Smith and Wesson.
    Mr. Renzi. Forty?
    Mr. Luckey. It's an H&K which, if you look at the purchase 
requirements--first of all, it was supposed to be a hammerless 
semiautomatic not made--that was manufactured in the United 
States. Of course, H&K is a German company. It's--I think the 
USP is a hammer-fired weapon. It's not a striker-fired weapon. 
There were a couple other things in there. I'm not bad-mouthing 
the U.S. weapon.
    Mr. Renzi. No.
    Mr. Luckey. I'm not bad-mouthing that, I'm just saying it 
didn't meet the criteria at all.
    Mr. Renzi. But the knock down power, are we all in 
agreement, in the gun--.
    Mr. Roberts. It's fine.
    Mr. Luckey. The .40 is a compromise between--if you want 
penetration, I suppose a nine-millimeter penetrates. But I'm of 
the old school that bigger is better. I think a .45 caliber is 
the one I would choose if I could.
    Mr. Roberts. A .40 is a pretty standard law enforcement 
round these days, also. That's pretty much what the feds issue. 
DEA issues it. It's a pretty standard bullet, and I think it's 
adequate for this.
    Mr. Renzi. Thank you, Mr. Chairman.
    Chairman Graves. One of the problems we have is a lot of 
misinformation out there to--even in Congress, there is a lot 
of individuals who don't understand the issue, don't understand 
aircraft, and there are a lot of those fallacies, I guess, that 
we are going to have to reverse. And one of them is--and you 
even hear it from some members of Congress--they are scared to 
death of, you put more armed individuals on an aircraft and 
they start shooting holes in the aircraft and then you've got, 
you know, you hear--and I'm a pilot, so I know the answer, but 
I want to get an answer from you all for the record.
    But, you know, this doom and gloom about penetrating the 
skin of an aircraft. You don't have--you don't blow an aircraft 
out of the air when that happens. And you all are experts and 
you might comment on that, too, just for the record so we will 
have it in there.
    Mr. Luckey. First of all, a handgun round is not a very 
powerful weapon. I mean, it's--you've heard the old story maybe 
that a handgun is something you'd use to fight your way to a 
real gun if you were in a gunfight.
    But, really, the penetration--you can stand in the back of 
an aircraft and give somebody a box of ammunition--I would be 
comfortable flying a T-category commercial aircraft. You would 
have some real problems if your mission was to hurt that 
airplane. And as far as holes go, you know, the skin on an 
aircraft is made out of ripstop aluminum, but it's made to be 
punctured and still survive. The outflow valves from 
pressurization are huge on most aircraft, and they control--
they are like baffles, and they open and close. And we don't 
even use maximum bleed air when we operate the aircraft. We 
usually run about half of the available bleed pressure.
    So you can stand back there and punch holes in that
    thing without even losing cabin pressure. People have seen 
too many movies about people getting sucked out and all this 
stuff. And the reality involved, even hitting a hydraulic line, 
unless you get a perpendicular, 90-degree shot, you may bend 
it, you may dent it, but you can hang tubing all over here and 
shoot it all day long. It's difficult. A low velocity round 
compared to a rifle round--a rifle round will punch through it. 
A lot of times a handgun round--and Buz will back me up on 
this, I think--will bend it, shear off it, but it will not cut 
it, penetrate it. You would have trouble doing that.
    So these are severely overstated things, and I think 
everyone needs education on this.
    Mr. Sapio. I'd like to add a little bit to that.
    Essentially, you could shoot up anything and everything in 
the cockpit, and the airplane is still going to fly. You have 
triple redundancy on the electrical system; you have triple 
redundancy on the hydraulic system. You have--even if you were 
to lose the hydraulic system, the airplane would still fly with 
manual reversion. If you were to lose your, all three of your 
generators, you would still fly with battery.
    The windows in an airliner are made out of plexiglass. 
They're not made out of safety glass. So when people watch the 
movie Goldfinger and they watch this big guy getting sucked out 
a tiny window of the business jet, it's not going to happen on 
an airliner. It's not safety glass, which is designed 
specifically to shatter so that people don't get severely cut 
in a car accident. It's made out of plexiglass. It's designed 
to hold the pressure of an airplane in.
    It's also designed to withstand bird strikes. I had a bird 
strike flying into Houston. I was flying at 320 knots 
indicated, leveling off at 10,000 feet, so our true air speed 
was much greater than 320 knots, and a large bird hit the 
windshield. It's sounded like a cannon went off inside the 
cockpit. It didn't even crack the plexiglass.
    So these airplanes are tough, and the windows are extremely 
tough. And even if the bullet could penetrate the window, which 
is unlikely, it would only put a half-inch diameter hole in it. 
It's not going to shatter the way you see it in the movies.
    Mr. Renzi. Terry, was that an endangered species that hit 
your window?
    Mr. Sapio. Well, it was after that.
    Mr. Renzi. I was going to ask--I want to move, if I could, 
Mr. Chairman, the discussion to location.
    This morning, when I read TSA's testimony, I noticed that 
the testimony begins to try and say that they are being 
inclusive to small businesses and private facilities. We are 
being told that by TSA in their testimony. I don't know if 
you've had a chance to read their testimony, but it will now be 
part of the public record and will be available to you. In 
their testimony, they talk about how they contracted Lockheed 
Martin to conduct a study on the requalification sites.
    And for the audience, what we are talking about is, the TSA 
is saying, okay, we want to do the first training but we will 
let the ``requal'' be done by private sector, which doesn't 
make any sense to me since, if you're going to give up control 
on the requal, you might as well go to the best and first 
position.
    The site selection study that was done by Lockheed Martin 
identified ten hub cities where, ultimately, they want to go 
for their requal. They identified Newark, Philadelphia, 
Atlanta, Miami, Minneapolis, Dallas, Chicago, Los Angeles, 
Seattle and Denver. Not Phoenix, which is interesting to me.
    Now, I'm under the impression that most of this training 
will be done indoors, but some possibly would be done outside. 
And, so, in the cities of Newark, Philadelphia, Atlanta, 
Minneapolis, Chicago, Seattle and Denver, which are in subzero 
weather today, those sites would be at a disadvantage given 
climate consideration, which does not seem to be considered in 
the survey.
    In addition, I'd like to discuss the location as we talk 
today about the New Mexico facility and the disadvantage so 
that Phoenix, Arizona, which was not identified, which is the 
hub for America West, one of the, one of the better airlines 
that we now have, in all honesty, in the skies, who flies 
substantially around the country, Mr. Chairman, and whose 
pilots are based, a good majority, in Phoenix, those pilots 
aren't able to drive an hour and a half north or aren't able to 
access any kind of training typically in the southwest other 
than Dallas. So the southwest has been somewhat left out of 
this survey completely.
    So I'd ask, please, for a better understanding as it 
relates to location, outside training, and the detriments at 
the training facility in New Mexico if we could expand on that.
    Mr. Roberts. First of all, you mentioned America West 
having a hub in Phoenix. Southwest does, too. We have 800 
pilots based in Phoenix. So, right there, you have America West 
and Southwest. They could easily drive up here and requal.
    So, you know, the Artesia training facility was, by TSA's 
comments, was underused. They wanted to find a reason to 
breathe life into it. They wanted to find a reason to keep it 
up and running, so put the pilots out there. Once again, put 
the inconvenience on the pilots. If they want to play, they'll 
come out here. That's been their attitude on every aspect of 
all of this. If these guys are willing to jump through all 
these hoops, we'll let them carry the gun. It's just another, 
another roadblock they have thrown up to make it difficult; let 
them go out there to Artesia do it.
    Mr. Renzi. Thank you.
    Mr. Luckey. I was at the Lockheed Martin meeting on the 4th 
of November 2003 where this stuff was discussed. I have that 
same list of cities.
    According to the two people who were in charge of it, 
designated by Lockheed Martin--it was Chuck Faremooth and 
Grandy Williams--they told us that they considered 971 ranges 
around the United States. They used 47 criteria elements to 
analyze this, and they come up with a primary and a secondary 
list.
    And I asked them to tell me why Phoenix wasn't in there. 
Because, obviously, they had a map and a Power Point with all 
these things on it. I said our people have to travel there, 
they have to spend time away from home, it's a big deal, it's 
all volunteer and they incur the costs. And they said that they 
were going to look at Phoenix in the future at some time. It 
was a very ambiguous meeting.
    I was very disappointed in the amount of attention that 
they had paid to this. And the other thing that I was a little 
bit disappointed in was that they didn't, again, consult the 
end user: Where would you like to see these people trained, 
where are the hubs, where do they live, where do most of them 
fly out of? And I think these are considerations that they 
claim to have looked at, but their selection didn't reflect 
that.
    Mr. Roberts. This is another horror story from the first 
class, but this actually happened.
    We brought up problems like this, and at some point the 
lawyer, the staff attorney, said, guys, your inconvenience and 
the inconvenience and adverse effect to your airline regarding 
this program is not our problem, it's your problem; you and 
your airline will have to figure out ways to implement this and 
make it work; we did not take into consideration your 
inconvenience and the hassle to your airline.
    That's the attitude we are dealing with.
    Mr. Renzi. They didn't look at where the pilots live or 
reside.
    Mr. Roberts. In one of our negotiations with them prior to 
the whole thing--the negotiations probably went on in January 
and February of last year. We were sitting down with TSA, and 
their psychologist, Ann Quigley, was overheard telling the TSA 
people, guys, stop asking the pilots so many questions; we're 
not here for their input; it's our program, we will tell the 
pilots how it's going to be; we don't want them to think that 
they have input here. That's Ann Quigley, the psychologist, 
telling them.
    So they would meet with us so they could say we met with 
the pilots; we went through all this with the pilots. They did. 
They met with us, and when the day was up--.
    Mr. Renzi. Sounds like psychobabble.
    Terry.
    Mr. Sapio. Southwest Airlines has 900 pilots based in 
Phoenix. And America West Airlines, I don't know the exact 
count, but it's probably comparable to Southwest Airlines, if 
not more.
    So there's a very large number of pilots that live only an 
hour and a half away from Prescott and Gunsite Academy. And for 
the TSA to say if you want to carry the firearm, if you want us 
to let you carry the firearm in the cockpit, you have to do 
this, this and this and this, and you have to do it our way, 
otherwise, you don't get to do it--and they are completely 
missing the point. All of us would rather not have to carry the 
firearm at all. We would all rather that 9/11 never happened.
    But the simple fact of the matter is, is that if another 
one happens, it will devastate the airline industry, it will 
devastate our economy, and most of us will be in the 
unemployment lines. And we don't want that to happen, so we're 
willing to volunteer at no costs, no pay whatsoever. We are 
volunteering to do our part to deter the terrorists from ever 
doing another 9/11. And the TSA is doing everything that they 
can to deter us from volunteering. It doesn't make any sense 
whatsoever.
    Mr. Renzi. It kind of segues into my next question, which 
was going to be, when we talk about voluntarism, we talk about 
the deterrence, we talk about the fact that factually, right 
now, TSA is pointing to the fact they have slots open at the 
training facility. And there is a statement in the record that 
Mr. Roberts has made that that voluntarism would grow if these 
deterrents went away.
    Can you expand for me on what you see is the bottled-up 
anxiety, or what are the numbers? What kind of small changes 
could be made to allow that bottled-up anxiety to be removed or 
the frustration to be taken out of the way so that these guys 
could--and these gals could get----
    Mr. Roberts. They could loosen up the restrictions to get 
involved in the program.
    Mr. Renzi [continuing] The application process.
    Mr. Roberts. Yeah, this whole 13-page application. I've got 
a whole list here of guys that have been turned down for 
whatever reason. It's a lengthy list of, you know, airline 
pilots, military officers, former federal law enforcement 
people, all turned down. This isn't even, this isn't even 
mentioning the people that haven't even applied.
    I know in Orlando, where I'm based, there's six federal law 
enforcement officers, formerly, that don't want anything to do 
with this because of the 13-page application, the psych test, 
the psych evaluation, and then travelling out to Artesia to do 
this.
    That's what needs to be loosened up, and people will start 
applying.
    Mr. Renzi. Captain Luckey, when we talk about loosening up 
criminal background checks, psychological evaluations, we do 
have pilots, we have in the news the history of pilots with 
alcoholism. And what--since the industry seems to be a real 
resource in helping us drive and change this to be a better 
fit, where in the application process, what pieces do we keep 
and what pieces are overly excessive? Anybody on the panel.
    Mr. Luckey. Think, first of all, in answer to your 
question, one, going back to the private facility, one of the 
concerns that our FFDOs and the Air Line Pilots Association 
expressed to me they were skeptical about going into a private 
facility is that they would be labeled as a non-federal 
legitimate entity and the reason they aren't trusted to carry 
the weapon like any other federal officer is because if they 
would go to a private facility.
    But I've discussed this with Buz, and he said his concept 
of really contracting--it's a government facility. It's a 
government program. It's a private facility, but it's overseen, 
the oversight is by TSA, et cetera. So you get around that. It 
is----
    Mr. Renzi. Let me ask you something. When TSA came to my 
office in D.C., their whole hangup that day was the graduation 
ceremony and making sure that the certificate and--is there a 
badge also awarded?
    Mr. Luckey [continuing] No badge.
    Mr. Roberts. No badge, because we're afraid you guys will 
try to badge your way out of speeding tickets. That's what we 
were told.
    Mr. Luckey. Hey're talking about it now. Since--I've got to 
say this. Since the operations, the TSA operation has taken 
over custody of the FFDO program, there's a different mind set 
there. The breakdown is between the upper level between Admiral 
Stone's office--used to be James Loy's office--and the 
operations people headed by Paul Kinberg, I believe his name 
is. He is the head of the operations that oversees the FFDO 
program. He's very receptive to some of the recommendations 
that we have made; however, his comments are that there's no 
way that you're ever going to have the custodial responsibility 
that we want. So we need to get around that.
    And I think all of the pilots recognize the quality and the 
expertise and the product that facilities like Gunsite puts 
out. I don't think it can be paralleled anywhere. So these are 
all important ingredients in this, in the recipe for success in 
deterring terrorism.
    So, I guess what we need to do is beg congressional help to 
try to get the emphasis in the right place.
    Mr. Renzi. Any movement where the trade association would 
develop a better application and submit it as a compromise, an 
alternative?
    Mr. Roberts. An application to come to the program?
    Mr. Renzi. Yes, where you guys would take the 13-page 
application and recognize the features that need to stay and 
then offer that--.
    Mr. Roberts. Personally, I think you could have a one-page 
application and state the name of the airline you work for and 
be done with it.
    Mr. Luckey. Right. They could use the FBI application. It's 
a lot simpler.
    Mr. Roberts. You know, an airline pilot, by the time he's 
working for a major airline, has probably had four or five 
jobs. He's been checked out numerous times, and every--.
    Mr. Renzi. Any other, any other major deterrents besides 
the application?
    Mr. Roberts. Psychological testing.
    Mr. Sapio. Psychological.
    Mr. Renzi. Why would we want to get rid of that? Why not--
why wouldn't we want a psychological evaluation on a civilian 
pilot who possibly has alcoholism?
    Mr. Sapio. If the TSA feels that it's necessary to have the 
extensive psychological evaluation of pilots, why don't they do 
that with their own federal air marshals?
    Mr. Renzi. Well, true, but--.
    Mr. Sapio. And the thing is, the pilots that are 
volunteering have already been flying--most of them have been 
flying for a long period of time before they ever get hired by 
an airline. Many of them are ex-military who have flown nuclear 
weapons, fighter jets with missiles aimed at airliners; they 
have flown--have had top secret security clearances. And the 
military trusts us, the airline trusts us. Every day, you know, 
every flight, they have a plane full of people, and everybody 
trusts us except for the TSA.
    And that's not really the point, Congressman Renzi. It's 
not that the TSA doesn't trust us. The real point is the TSA 
doesn't believe in the FFDO program. We all think it's because 
it doesn't contribute to their empire.
    And the purpose of the psychological testing is not to 
screen the pilots. The purpose of the psychological testing is 
to intimidate the pilots so that they don't volunteer. And the 
TSA has got to stop intimidating the pilots; otherwise, what's 
happening is going to continue to happen, and that is the vast 
majority--when this whole program was being--the legislation 
was being put together by Congress, everybody I talked to was 
all in favor of it. Anything we can do to help deter terrorism 
is wonderful.
    As soon as we found out what the, how the TSA was going to 
implement it and all the onerous rules, regulations and 
intimidation of the pilots that were participating, everybody 
said, well, there's 11 million flights a year, it's been two 
years since the last terrorist attack, that's 22 million 
flights. It's only happened four times, so, you know, do the 
math. That's about, that's already one in five million flights, 
and the count is going up higher, so the chances are that if it 
happens again, it's not going to happen on my flight. I'm not 
going to get my throat slit by a terrorist, it's going to 
happen to somebody else, so why should I go through all the 
hassle, all the aggravation and all the intimidation from the 
TSA to do something that is expensive to me?
    I checked with Southwest Airlines, and you have to either 
take a week vacation--which I have plans to do things with my 
family when I'm on vacation--or be pulled from a week of 
flying. Typically, we fly three or four days a week, and I 
average a thousand dollars a day income when I go fly. So 
that--in other words, I would have to give up three or four 
thousand dollars' worth of income to go--to be pulled from a 
trip and to go to TSA for a week of training. So why should I 
spend three or four thousand dollars and be hassled, 
intimidated, interrogated and everything else by the TSA when 
they know that it's all just designed to be harassment, to 
discourage me from participating in the program when I know the 
chances are one in millions that it would ever happen on my 
flight anyway?
    And that's not the purpose of the FFDO program. The purpose 
of the FFDO program is to get enough armed pilots in the 
cockpit so that none of us ever have to use our firearm. It's 
to convince the terrorists that trying to take over an airplane 
is an exercise in futility; it's just not going to happen, so 
don't even try it. And, then, none of us ever have to fire a 
shot.
    But the TSA doesn't see it that way. They see that the way 
to go is with federal air marshals. They are on the TSA 
payroll, they build the TSA empire, and the pilots, you know, 
they do not deserve to participate in the TSA empire.
    Mr. Renzi. Well said, Terry.
    Mr. Luckey. Mr. Chairman, a little bit of background on the 
psychological testing. I look at it a little bit different, 
having been involved in federal law enforcement for a number of 
years.
    Back in the '70s, we found out that about 25 percent of the 
federal agents probably couldn't shoot anybody. That's before 
all the human resources work and everything else, and we had 
some rather frightening experiences on the street where people 
were required to----
    Mr. Renzi. 25 percent couldn't?
    Mr. Luckey [continuing] 25 percent probably couldn't take a 
human life. That's a significant factor, and that's when the 
human resources and human factors people and the shrinks got 
hold of this thing and they started evaluating people for the 
ability of the application of lethal force.
    And I think every federal law enforcement officer that I 
know of goes through a rather significant psychological 
profile. I know I went through a very significant one with the 
FBI. And, granted, I was in a very nonstandard program, so it's 
a little different.
    But I think, since we're provided tort liability protection 
by the government, just like any other federal agent, when 
you're sworn, if you make a mistake and you shoot somebody, God 
forbid, you're protected and so is your employer protected 
under the auspices of the act.
    So I think these are considerations that you have to really 
take in and you have to weigh this out and balance it out. But 
some psychological profiling for the ability to apply lethal 
force, maybe suicidal tendencies and compulsive/aggressive 
behavior, are really not out of the question when you give 
somebody a weapon.
    Chairman Graves. Buz, you said you could be up and going in 
two weeks?
    Mr. Mills. Yes.
    Chairman Graves. And how many can you train?
    Mr. Mills. We could train, initially, a hundred pilots a 
week. We could do 5,000 a year without having, without having 
to increase any infrastructure or capital or any of that sort 
of thing. We could expand. We have almost 2,000 acres here, and 
we can expand, you know, to do whatever number that you want to 
do with some time and some effort. But without any capital 
infusion or without any increased infrastructure, we feel that 
a hundred a week would be easily accomplished.
    And, as you can see, you're here, Mr. Chairman, January the 
15th, in the dead of winter, and in the beautiful high desert 
of Arizona, the temperature is 55 degrees. Beautiful training 
environment, even in the dead of winter.
    Mr. Renzi. Absolutely.
    Chairman Graves. Do you have any----
    Mr. Renzi. I have one more.
    Chairman Graves [continuing] Okay.
    Mr. Renzi. Is that okay?
    Chairman Graves. Yes. I was going to say, one of the 
focuses of this hearing is the small business aspects of it. 
And it's a little patronizing, I guess. TSA does point out in 
their, in the testimony that they do use small businesses in 
their program. They include procuring items such as lock boxes 
where the firearm must be stored, holsters and magazine 
pouches. So they are doing their part, I guess, to support the 
small business when it comes to training.
    Mr. Roberts. I'd suggest that they do just enough to 
qualify, so they can say we're participating. You know? You'll 
hear them time and time again say we worked with the pilots on 
this thing. They did just enough. They met with us, like I 
said. They never took any of our recommendations, but they did 
meet with us so they could say we met with the pilots on this. 
So, just like small business, hey, we got a few.
    Mr. Sapio. Congressman Renzi, just a little bit more on the 
question about the psychological screening.
    What I have here is--I printed this off of the Internet. 
It's from the APSA, APSA website, which is the----
    Mr. Renzi. American--.
    Mr. Roberts. Airline Pilots Security Alliance.
    Mr. Sapio [continuing] Okay. Airline Pilots Security 
Alliance. And they have excerpts of statements from many pilots 
that have been turned down by the TSA during the screening 
process. And here is one of them, one of the remarks about the 
psychological screening. It says: I've asked numerous federal 
air marshals if they ever interviewed with a psychologist 
during their interview process. Every one of them, without 
exception, attests that they did not ever speak with a 
psychologist, even those coming straight out of college with no 
law enforcement experience.
    So they are unknown quantities. The pilots that the TS--
that are volunteering to do this, we've had many years' 
experience flying. You know, I'm sure it's probably hundreds of 
thousands of passengers personally in 18 years, safely, without 
incident, without any problem whatsoever.
    So somebody like me would be a known quantity. Somebody 
fresh out of college with no experience whatsoever is an 
unknown, and they never have even one interview with a 
psychologist. So, yet--and it goes on to say: Yet the TSA 
insists that responsible airline pilots with years of 
experience in providing safety to air passengers be subjected 
to a contract psychologist's evaluation.
    And the thing is, it's not about the stability of any 
particular pilot. I mean, the pilots prove themselves day after 
day after day for many years before they even get to this 
point.
    Mr. Renzi. Is there--there's an annual evaluation you go 
through for Southwest--is there, when you guys go through your 
annual review for step ups in grade or pay, is there an 
evaluation that's done?
    Mr. Sapio. Not a psychological evaluation.
    Mr. Renzi. But there's observation annually?
    Mr. Sapio. Oh, sure. And there's also, there's always two 
pilots, at least two pilots in the cockpit. And flying is very 
competitive by nature, and each pilot is always evaluating and 
judging the other pilot, how good his skills are and how he 
manages the flight and that kind of thing. So you put, you 
know, two egos together and we're always being judged by our 
peers every single day we go to work.
    Mr. Renzi. So there is a--.
    Mr. Sapio. And if anybody was not trustworthy, that would 
quickly become apparent and that would quickly be dealt with in 
any airline.
    Chairman Graves. I'd like to submit that for the record, 
too, in its entirety.
    Mr. Sapio. Certainly. Yes, Mr. Chairman.
    [Information not submitted to the Record]
    Mr. Renzi. My final question--and I appreciate it. I feel 
like we've really done a good job here of fleshing a lot of 
this out--is if we continue down the road with no changes, if 
we stay without making any kind of optional alternatives, 
without making it easier for the pilots, where do we go? Where 
is the capacity issue, where is the ability not to--ultimately, 
where do you see this thing headed?
    Obviously, you know, it's easy to see you see it as a 
failure. But without the changes, without the, including the 
private sector in, where are we headed as a nation in the 
future?
    Mr. Roberts. I think you are going to have a very, very 
small program. You are going to have a very small percentage of 
the pilots participating, and you are going to be able to have 
TSA control all aspects of it, including all the training. And 
at some point, the initial classes, they are not going to have 
to have one a week, they can have one a month because there's 
not going to be the people applying. And there will be people 
in the program that will require recurrent training, but I 
think as time goes on, you are going to see that TSA can handle 
that with their own facilities like they are doing now because 
of small numbers of guys.
    And I think, eventually, if nothing changes, people are 
going to go, you know, I've been doing this for a year and this 
is a pain and I'm out of it, and they are going to send the box 
and the gun and everything else back to TSA and say, you know, 
I got nothing out of this for me; there is zero upside for the 
pilot, zero, hundred percent hassle; why? And send the box 
back.
    Mr. Renzi. That's well said.
    Mr. Roberts. You know, the first class that went through, I 
can tell you, the majority of people I spoke to before I went 
home said, you know what, I'm finishing so I can get the 
credentials, but the box is going in my closet; I'm not doing 
this.
    So a lot of guys are going to go through training and put 
it in the closet and not carry it because of all the hassle 
factor. Many people that were at that first class had no idea 
what was coming down the pipe. There were a handful of us that 
did, but many guys didn't know what was coming down. When they 
heard the policies, they were in awe of how foolish they were.
    Mr. Luckey. One of the things I think we have to look at 
here is that commercial aviation is about eight and a half 
percent of our gross domestic product in the United States. I 
think, right now, if we don't use every resource that we can 
develop here and, you know, according to the July 25th 
statement, to protect the infrastructure of the U.S. that the 
president signed last year--he spent a hundred billion dollars, 
not counting the government, not counting the military, to 
protect the infrastructure of this country.
    I think this is the type of program where we need to focus, 
because I think one of the greatest deterrents against 
terrorism is to harden this target. Because every layer of 
security has a degree of porosity, and as these layers get 
closer to the principal point of protection, they must become 
more predictably reliable and more dependable. In other words, 
that door has to be good, because there's nothing between that 
door and that F-16.
    And I don't think that in this country, the U.S. industry, 
aviation industry could survive a catastrophic shoot down by a 
fighter on American soil full of Americans to protect the 
infrastructure. I just can't see it. And I think anything that 
we do to focus on this, to make this program good--this isn't 
going to cost a bunch. Like I said, this is the best bang for 
the buck that I've ever seen Uncle Sam get, and I think we run 
the risk of being the most politically correct extinct industry 
in the world if we don't utilize these resources in the 
country.
    Mr. Roberts. The expenses for this program are not coming 
from the pilots. We're free. The expenses are coming from the 
psychological staff they've got and this army of people doing 
background checks that are unnecessary. You know, that's where 
the expenses are coming. Ask for TSA's budget. Find out where 
the money is going on all these studies and people to vet the 
flight crews and to interview us. This is where the money is 
going on this program. It's not to buy us guns and put us in 
the cockpit. That's minimal. They are spending a ton of money 
on something that can be done, you know, with a phone call, 
basically.
    Mr. Sapio. And background checks, we've already had. We've 
all been fingerprinted. We've all had the background checks. In 
the military, we've all had the background checks. So I've 
already had a couple background checks; I've been fingerprinted 
several times. So pilots--and we have cockpit voice recorders, 
we have cockpit flight data recorders. We get drug tested, we 
get alcohol tested. Pilots are more probed and poked and 
invaded than any other career group in the country.
    Mr. Roberts. It's a fact.
    Mr. Sapio. And the TSA says it's not enough, we want to 
poke and prod some more. And it's absolutely, totally 
ridiculous.
    Mr. Renzi. There's a joke in there somewhere.
    Mr. Sapio. So, you know, basically, you have, Congress has 
two choices. They can continue to let the TSA thwart the 
legislation and the intent of the legislation, which is--
obviously, the intent is to ensure that a 9/11 never happens 
again; that terrorists never have the opportunity to take 
control of a large aircraft and fly it into a building again.
    And the best way to ensure that it never happens again is 
to convince the terrorists that it's not even worth trying 
because it's not going to happen. And the best way to ensure 
that is to have so many pilots carrying so many firearms that 
they, the terrorists don't even try.
    Mr. Renzi. That's well done. Thank you.
    Mr. Chairman, I just want to thank you very much for coming 
all the way out here from Missouri.
    Buz, thank you for the hospitality. Thank you for pushing 
on the envelope a little bit given the leadership at TSA, who 
at times possibly has enacted--I don't want to see any 
retaliation towards you, particularly what you're trying to do 
for our nation and the private sector. I'm grateful for the 
expertise today. It was--all of it was great testimony.
    Chairman Graves. I, too, appreciate everybody coming out 
today. I think we have kind of demonstrated why TSA doesn't 
want businesses to train additional pilots. In my opinion, they 
are crippling this program to an extent. There is really no 
good reason that I can see. In fact, I think small business, or 
some of these private entities are uniquely qualified to a good 
job of training these pilots.
    And with all the findings we will have today, I will be in 
discussion with the Chairman of the Aviation Subcommittee. He 
also is in agreement that we need to be training more pilots 
and getting more pilots out there to protect their aircraft and 
the people that are flying on these aircraft, and I will be 
discussing our findings with him and some of my ideas and some 
of the things I want to do.
    Again, I appreciate everybody being here. I hope, I hope 
that we never have another hijacking in this country, but the 
fact of the matter is, it will eventually happen again. And I 
certainly hope that we don't have a situation where we have 
officers--or pilots on that plane that aren't carrying a 
weapon. And an even worse case scenario is there's a weapon on 
that plane but it's stuck in a box down in the belly of that 
aircraft. I think that's something we all need to think real 
hard about.
    But I want to thank everybody for being here and all of you 
for coming out. Mayor, it was nice to meet you. And I 
appreciate the testimony. This will go a long ways towards 
helping us in our goal, and that's to get more pilots armed. 
Thank you.
    [Whereupon, at 2:45 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T3476.021
    
    [GRAPHIC] [TIFF OMITTED] T3476.022
    
    [GRAPHIC] [TIFF OMITTED] T3476.001
    
    [GRAPHIC] [TIFF OMITTED] T3476.002
    
    [GRAPHIC] [TIFF OMITTED] T3476.003
    
    [GRAPHIC] [TIFF OMITTED] T3476.004
    
    [GRAPHIC] [TIFF OMITTED] T3476.005
    
    [GRAPHIC] [TIFF OMITTED] T3476.006
    
    [GRAPHIC] [TIFF OMITTED] T3476.007
    
    [GRAPHIC] [TIFF OMITTED] T3476.008
    
    [GRAPHIC] [TIFF OMITTED] T3476.009
    
    [GRAPHIC] [TIFF OMITTED] T3476.010
    
    [GRAPHIC] [TIFF OMITTED] T3476.011
    
    [GRAPHIC] [TIFF OMITTED] T3476.012
    
    [GRAPHIC] [TIFF OMITTED] T3476.013
    
    [GRAPHIC] [TIFF OMITTED] T3476.014
    
    [GRAPHIC] [TIFF OMITTED] T3476.015
    
    [GRAPHIC] [TIFF OMITTED] T3476.016
    
    [GRAPHIC] [TIFF OMITTED] T3476.017
    
    [GRAPHIC] [TIFF OMITTED] T3476.018
    
    [GRAPHIC] [TIFF OMITTED] T3476.019
    
    [GRAPHIC] [TIFF OMITTED] T3476.020
    
      

                                 <all>

</pre></body></html>
